Pet. App. 1
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

IN RE: CHARLES T. FOTE,
Appellant
-----------------------------------------------------------------------

2018-2311
-----------------------------------------------------------------------

Appeal from the United States Patent and Trademark Office, Patent Trial and Appeal Board in No.
14/455,526.
-----------------------------------------------------------------------

JUDGMENT
-----------------------------------------------------------------------

(Filed Nov. 12, 2019)
JULIE S. GOLDEMBERG, Morgan, Lewis & Bockius
LLP, Philadelphia, PA, argued for appellant. Also represented by JASON C. WHITE, Chicago, IL; WILLIAM R.
PETERSON, Houston, TX.
AMY J. NELSON, Office of the Solicitor, United
States Patent and Trademark Office, Alexandria, VA,
argued for appellee Andrei Iancu. Also represented by
THOMAS W. KRAUSE, JOSEPH MATAL, ROBERT MCBRIDE.
-----------------------------------------------------------------------

Pet. App. 2
THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
PER CURIAM (REYNA, TARANTO, and STOLL, Circuit
Judges).
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT
November 12, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Pet. App. 3
UNITED STATES PATENT
AND TRADEMARK OFFICE
-----------------------------------------------------------------------

BEFORE THE PATENT TRIAL
AND APPEAL BOARD
-----------------------------------------------------------------------

Ex parte CHARLES T. FOTE
-----------------------------------------------------------------------

Appeal 2017-003210
Application 14/455,5261
Technology Center 3600
-----------------------------------------------------------------------

Before HUBERT C. LORIN, NINA L. MEDLOCK, and
BRADLEY B. BAYAT, Administrative Patent Judges.
LORIN, Administrative Patent Judge.
DECISION ON APPEAL
(Filed Jun. 29, 2018)
STATEMENT OF THE CASE
Charles T. Fote (Appellant) seeks our review under
35 U.S.C. § 134(a) of the Final Rejection of claims 3-5
and 8. We have jurisdiction under 35 U.S.C. § 6(b).

1

The Appellant identifies Fotec Group LLC as the real party
in interest. Br. 4.

Pet. App. 4
SUMMARY OF DECISION
We AFFIRM.
THE INVENTION
Claim 8, reproduced below, is illustrative of the
subject matter on appeal.
8.

A telecommunication system comprising:
a) an electronic communication device
connected to and configured for communication over a telecommunication network,
the electronic device comprising:
a device communication facility permitting communication over the telecommunication network via a secure
session; and
a processor configured for running a
secure application for (i) authenticating or obtaining authentication information from a payer, (ii) communicating
via secure sessions and accessing secure databases, (iii) receiving payee
identifying and real account and financial institution information, (iv)
receiving a selection by the payer of
a funding source and at least one real
account associated with the payer,
and (v) receiving a selection by the
payer of at least one real account and
financial institution associated with
the payee;

Pet. App. 5
b) a brokerage server, operated by a payment broker and connected to and configured
for communication over the telecommunication network, the brokerage server comprising:
a server communication facility permitting communication over the telecommunication network via a secure session;
a computer memory comprising a secure
database; and
a processor configured for (i) receiving
authentication information via the telecommunication network using the server
communication facility, (ii) authenticating and identifying the payer based on
the authentication information, (iii) receiving, via the telecommunication network using the server communication
facility, an instruction from the payer instructing that a payment be made electronically from the payer-selected funding
source and at least one payer-selected
real account thereof to a payer-selected
real account and financial institution,
other than the payment broker, associated with the payee, the selection of the
real account and financial institution associated with the payee being controlled
by the payer and not by the payee, (iv)
computationally retrieving, from the secure database, information identifying
the payer-selected funding source and the
at least one payer-selected real account

Pet. App. 6
thereof and the payee and the payerselected real account of the payee at a financial institution other than the payment broker, (v) requesting, via the
telecommunication network using the
server communication facility, the server
of the payer-selected funding source to
authorize the payment to the payee, (vi) if
the payment is authorized by the server
of the payer-selected funding source, instructing such server, via the telecommunication network using the server
communication facility, to cause the payment to be made electronically to the
payee on the funding source’s behalf by a
third party other than the payment broker such that the identities of the payerselected funding source and the at least
one payer-selected real account of the
payer at the funding source are not divulged to the payee and such real account
identifying information is not transmitted to, received or stored by the payee’s
depository bank or other financial institution, and (vii) instructing the server of
the payer selected funding source, via the
telecommunication network using the
server communication facility, to reimburse or transfer the amount of the payment to the third party from the at least
one payer-selected real account of the
payer at the funding source;
and

Pet. App. 7
c) a funding source server, operated by a
payer-selected funding source and connected
to and configured for communication over
the telecommunication network, the funding
source server comprising:
a server communication facility permitting
communication over the telecommunication
network;
a computer memory comprising a secure database; and
a processor configured for (i) receiving, via the
telecommunication network using the server
communication facility, the request from the
payment broker server for authorization of
the payment, (ii) computationally retrieving,
from a secure database, information identifying the payer and the at least one payerselected real account of the payer at the funding source, (iii) authorizing or denying the
requested payment, (iv) in response to instruction from the payment broker server following authorization, instructing, via the
telecommunication network using the server
communication facility, at least one third
party other than the payment broker to make
the payment electronically to the payee from
a real account of the third party at a financial
institution associated with the third party
and in the third party’s name and not in the
name of the payment broker, the funding
source or the payer, thereby preventing divulgation, both to the payee’s depository bank or
financial institution and to the payee, of the

Pet. App. 8
identity of the funding source and the at least
one payer-selected real account of the payer,
and (v) reimbursing or transferring the
amount of the payment to the third party from
the at least one payer selected real account of
the payer at the funding source.
THE REJECTION2
The following rejection is before us for review:
Claims 3-5 and 8 are rejected under 35 U.S.C.
§ 101 as being directed to judicially-excepted subject
matter.
ISSUE
Did the Examiner err in rejecting claims 3-5 and
8 under 35 U.S.C. § 101 as being directed to judiciallyexcepted subject matter?
ANALYSIS
The rejection of claims 3-5 and 8 under 35 U.S.C. § 101
as being directed to judicially-excepted subject matter.
The Appellant argues these claims as a group. See
Appeal Br. 7-17; see also, Reply Br. 2-6. We select claim
8 as the representative claim for this group, and the
remaining claims 3-5 stand or fall with claim 8. 37
C.F.R. § 41.37(c)(1)(iv).
2

The Examiner withdrew the rejection under 35 U.S.C.
§ 103 (Ans. 2).

Pet. App. 9
Alice Corp. Proprietary Ltd. v. CLS Bank International, 134 S. Ct. 2347 (2014), identifies a two-step
framework for determining whether claimed subject
matter is judicially excepted from patent-eligibility under 35 U.S.C. § 101.
According to Alice step one, “[w]e must first determine whether the claims at issue are directed to a
patent-ineligible concept,” such as an abstract idea.
Alice, 134 S. Ct. at 2355.
In that regard, the Examiner determined that the
claims are directed to “the abstract idea of electronic
fund transfer using a third party,” and that that is similar to the abstract idea identified in Alice. Final Act.
3. According to the Examiner, “[t]he invention simply
uses a third party/intermediary rather than a traditional payment broker to facilitate electronic payment
to a payee from a payer’s funding source.” Ans. 3.
The Appellant challenges the Examiner’s determination that the concepts to which claim 8 is directed
are abstract ideas. According to the Appellant,
The recited device and servers intercommunicate over a telecommunication network in a
specific fashion to preclude divulgation, both
to the payee’s depository bank or financial
institution and to the payee, of the identity
of the payer’s funding source and the payerselected real account(s) of the payer in the
course of a payment transaction.
Appeal Br. 8. According to the Appellant, this feature
of claim 8 cannot be considered abstract because “[i]f

Pet. App. 10
this is ‘abstract,’ it is difficult to imagine what claim
could escape that fatal designation . . . ” Id.
Claim 8 recites a funding source server processor
configured for, inter alia:
instructing, via the telecommunication network using the server communication facility,
at least one third party other than the payment broker to make the payment electronically to the payee from a real account of the
third party at a financial institution associated with the third party and in the third
party’s name and not in the name of the payment broker, the funding source or the payer,
thereby preventing divulgation, both to the
payee’s depository bank or financial institution and to the payee, of the identity of the
funding source and the at least one payerselected real account of the payer . . .
Appeal Br. 20 (Claims Appendix). In other words, the
invention prevents divulgation of payer information by
instructing “at least one third party” to act as an intermediary between the payer and the payee in the course
of making a payment electronically.
We see little difference between the claimed use
of “at least one third party” to prevent divulgation of
information and “the concept of intermediated settlement, i.e., the use of a third party to mitigate settlement risk.” Alice, 134 S. Ct. at 2356. The similarities
are readily apparent. The Court in Alice described the
claimed invention as follows:

Pet. App. 11
Petitioner’s claims involve a method of exchanging financial obligations between two
parties using a third-party intermediary to
mitigate settlement risk. The intermediary
creates and updates “shadow” records to reflect the value of each party’s actual accounts
held at “exchange institutions,” thereby permitting only those transactions for which the
parties have sufficient resources. At the end
of each day, the intermediary issues irrevocable instructions to the exchange institutions
to carry out the permitted transactions.
Id. Like the invention in Alice, claim 8 involves exchanging financial obligations between two parties
(i.e., between actual accounts of the two parties)
using a third-party intermediary. And like the invention in Alice, claim 8 involves computer systems for
implementing electronic financial transactions, the
transactions carried out by issuing instructions to a
third-party intermediary (“instructing . . . at least one
third party . . . to make the payment electronically to
the payee from a real account of the third party”). We
see no meaningful distinction between the concept of
intermediated settlement at issue in Alice and the concept of intermediated payment at issue here.
The Appellant argues that the claims before us are
similar to the claims in Enfish, LLC v. Microsoft Corp.,
822 F.3d 1327, 1335 (Fed. Cir. 2016), where claims directed to the use of a self-referential table for a computer database were held patent-eligible. Appeal Br.
10. According to the Appellant, “the present claims
likewise recite a specific implementation of a solution

Pet. App. 12
to a problem in the art and practice of electronic commerce.” Id.
The argument is unpersuasive.
The court in Enfish put the question as being
“whether the focus of the claims is on [a] specific asserted improvement in computer capabilities . . . or, instead, on a process that qualifies as an ‘abstract idea’
for which computers are invoked merely as a tool.”
Enfish, 822 F.3d at 1335-36. The court found that the
“plain focus of the claims” there was on “an improvement to computer functionality itself, not on economic
or other tasks for which a computer is used in its ordinary capacity.” Id. at 1336.
The Specification belies the Appellant’s argument
that the claimed subject matter does not merely use
generic computers as a tool or that their functioning is
improved by the claimed scheme. Claim 8 nominally
defines a system comprising three different computer
components (a, b, and c) and two secure databases (in
b and c). The Specification discloses the claimed computers in functional terms as being “a general purpose
computer . . . or any other device or arrangement of devices that is capable of implementing the steps of the
processes of the invention.” (Spec. 16, ll. 1-9). The
Specification does not disclose a new type of secure database or that the database stores records in any assertedly inventive way. Rather, the Specification merely
discloses the use of “one or more databases having multiple records for payers and payees” (Id. at 5, ll. 27-28).
Thus, the Specification supports the view that these

Pet. App. 13
elements are simply conventional computer components as a conduit for the performance of a scheme for
making electronic payments.
In view of the above, we see no error in the Examiner’s determination that claim 8 is directed to an abstract idea.
Step two of the Alice framework is “a search for an
‘inventive concept’—i.e., an element or combination of
elements that is ‘sufficient to ensure that the patent in
practice amounts to significantly more than a patent
upon the [ineligible concept] itself.’ ” Alice, 134 S. Ct.
at 2355 (alteration in original) (quoting Mayo Collaborative Servs. v. Prometheus Labs., Inc., 566 U.S. 66, 73
(2012)).
In that regard, the Examiner determined that
“[t]he claims recite additional limitations of using an
electronic device, broker server, and a funding source
server in a network” and that these components “simply
perform the generic computer functions of receiving,
processing and transmitting information.” Final Act.
3. According to the Examiner, “[t]he claims at issue
do not require any nonconventional computer, network,
or database components, or even a ‘non-conventional
and non-generic arrangement of known, conventional
pieces,’ but merely call for performance of the claimed
facilitation of EFT functions ‘on a set of generic computer components.’ ” Ans. 4 (quoting Bascom Global
Internet Services, Inc. v. AT&T Mobility LLC, 827 F.3d
1341, 1349-50 (Fed. Cir. 2016)).

Pet. App. 14
The Appellant argues that the claims are similar
to the claims held eligible in DDR Holdings, LLC v.
Hotels.com, L.P., 773 F.3d 1245 (Fed. Cir. 2014). Appeal
Br. 11-13. According to the Appellant, “[p]ayments
made electronically over telecommunication networks,
by contrast, present vulnerabilities unknown and inapplicable to such conventional [nonelectronic] arrangements” such as ‘man in the middle’ attacks,”
wherein “malicious actors acquire information from
both the payer and the payer’s funding source, and
piece these together to masquerade as one of the end
parties.” Id. at 12. The Appellant contends that:
This invention, like the “network-centric” invention in DDR, addresses these networkbased security holes by (i) authenticating the
payer and obtaining information using a secure application, communicating via secure
sessions and using secure databases, (ii) allowing the payer to select the payee account
and financial institution to which the electronic payment to the payee will be made,
(iii) ensuring that the payment destination is
a third party other than the payment broker
(which could compromise information), and
(iv) requiring that the electronic payment to
the payee originate from a real account and
financial institution associated with a third
party other than the payment broker or the
payer’s funding source and in the third party’s
name. Thus, this is a network-based solution
to a network-based problem, with specific operations that are only meaningful over a network; it is not a basic financial transaction

Pet. App. 15
that happens to be carried out over a network
as a generic alternative to traditional channels.
Id. at 12-13.
In DDR Holdings, the Federal Circuit determined
that although the patent claims at issue involved conventional computers and the Internet, the claims nevertheless addressed the problem of retaining website
visitors who, if adhering to the routine, conventional
functioning of the Internet hyperlink protocol, would
be transported instantly away from a host’s website after “clicking” on an advertisement and activating a hyperlink. DDR Holdings, 773 F.3d at 1257. The court
determined that those claims were directed to statutory subject matter because they claim a solution “necessarily rooted in computer technology in order to
overcome a problem specifically arising in the realm of
computer networks.” Id.
No such technological advance is evident in the
claimed invention. Unlike the situation in DDR Holdings, the claimed computer components operate precisely
in the expected manner of storing data in association
with other data, and sending and receiving data via
a conventional network. (See Spec. 14, ll. 4-5 (“the Internet and/or any other land-based or wireless telecommunication network or system).”)). Cf. buySAFE,
Inc. v. Google, Inc., 765 F.3d 1350, 1355 (Fed. Cir. 2014)
(“That a computer receives and sends the information
over a network--with no further specification--is not even
arguably inventive”). Nothing in the claim, understood

Pet. App. 16
in light of the Specification, requires anything more
than conventional computer implementation. “The
[S]pecification fails to provide any technical details for
the tangible components, but instead predominately
describes the system and methods in purely functional
terms.” In re TLI Commc’ns. LLC Patent Litig., 823
F.3d 607, 612 (Fed. Cir. 2016). For example, with respect
to the claimed step of “authenticating and identifying
the payer based on the authentication information,”
the Appellant’s Specification simply discloses:
Any suitable authentication method or technology may be used, including but not restricted to, authentication via password/PIN
entry and/or biometrics, digital signature functionality, or other two factor or three factor authentication all local to the electronic device,
as well as additional known authentication
processes at the payment broker’s server to
ensure that the payer, electronic device, software application and designated payee are
properly authenticated so that the processing
and completion of the requested payment
transaction can continue.
Spec. 16, l. 25-17, l. 4. There is no detail as to how the
authentication process is programmed or performed by
the computer beyond the use of these “known authentication processes.” “[A]fter Alice, there can remain no
doubt: recitation of generic computer limitations does
not make an otherwise ineligible claim patent-eligible.”
DDR Holdings, 773 F.3d at 1256 (citation omitted).

Pet. App. 17
Moreover, authentication, per se, is an abstract
idea. See EasyWeb Innovations, LLC v. Twitter, Inc.,
2016 WL 1253674 (E.D.N.Y. 2016), aff ’d, No. 20162335 (Fed. Cir. 2017) (“receiving, authenticating, and
publishing data” is an abstract idea.) Claims that include authentication steps have been found patentineligible. See e.g., Intellectual Ventures I LLC v. J.
Crew Group, Inc., 703 F. App’x 991 (Mem.) (Fed. Cir.
2017); Front Row Technologies LLC v. MLB Advanced
Media, L.P., 697 F. App’x 701 (Mem.) (Fed. Cir. 2017);
GoDaddy.com LLC v. RPost Communications Limited,
685 F. App’x 992 (Mem.) (Fed. Cir. 2017); Clarilogic, Inc.
v. FormFree Holdings Corporation, 681 F. App’x 950
(Fed. Cir. 2017); Morsa v. Facebook, Inc., 622 F. App’x.
915 (Mem.) (Fed. Cir. 2015); and Prism Technologies
LLC v. T-Mobile USA, Inc., 696 F. App’x. 1014 (Fed. Cir.
2017).
Merely combining several abstract ideas does not
render the combination any less abstract. Cf. Shortridge v. Found. Constr. Payroll Serv., LLC, No. 14-CV04850-JCS, 2015 WL 1739256, *11 (N.D. Cal. Apr. 14,
2015), aff ’d, No. 2015-1898, 2016 WL 3742816 (Fed.
Cir. July 13, 2016).
We also cannot agree with the Appellant that the
claims before us are similar to those in Bascom Global
Internet Services, Inc. v. AT&T Mobility LLC, 827 F.3d
1341 (Fed. Cir. 2016). See Appeal Br. 14-17. The Appellant contends that the claims are similar to the
invention in Bascom because “the claims recite three
intercommunicating devices, their operational components, the specific manner in which they are configured

Pet. App. 18
to interact and the particular data and instructions
they are configured to receive and transmit.” Id. at 14.
This argument is unpersuasive.
In Bascom, the court determined that “an inventive concept can be found in the non-conventional and
non-generic arrangement of known, conventional pieces.”
Bascom, 827 F.3d at 1350. Specifically, Bascom’s content filter could be “installed remotely in a single location” and “this particular arrangement of elements is a
technical improvement over the prior art ways of filtering.” Id.
That the claim requires three devices configured
for communicating “particular data and instructions”
via a network is not enough to transform the abstract
idea into a patent-eligible invention. Cf. In re Salwan,
681 F. App’x 938, 941 (Fed. Cir. 2017) (“Given that the
claims are directed to well-known business practices,
the claimed elements of a generic “network,” “computer
program,” “central server,” “device,” and “server for processing and transferring” are simply not enough to
transform the abstract idea into a patent-eligible invention.”). In our view, the invention before us is more
similar to the claimed invention in Alice than Bascom.
Indeed, Alice Corporation made a similar argument as
the Appellant makes here. See Alice, 134 S. Ct. at 2360:
As to its system claims, petitioner emphasizes
that those claims recite “specific hardware”
configured to perform “specific computerized
functions.” Brief for Petitioner 53. But what
petitioner characterizes as specific hardware—

Pet. App. 19
a “data processing system” with a “communications controller” and “data storage unit,” for
example, see App. 954, 958, 1257—is purely
functional and generic. Nearly every computer
will include a “communications controller” and
“data storage unit” capable of performing the
basic calculation, storage, and transmission
functions required by the method claims. See
717 F.3d, at 1290 (Lourie, J., concurring). As
a result, none of the hardware recited by the
system claims “offers a meaningful limitation
beyond generally linking ‘the use of the
[method] to a particular technological environment,’ that is, implementation via computers.” Id., at 1291 (quoting Bilski, 561 U.S., at
610-611, 130 S. Ct. 3218).
Taking the claim elements separately, the function
performed by the computers at each step is purely conventional. Communicating/receiving data, authenticating information, storing/retrieving data via databases,
and issuing instructions are basic computer functions.
In short, each step does no more than require a generic
computer to perform routine computer functions. Each
element acts a conduit for the performance of its corresponding common function. Cf. In re TLI Commc’ns.,
823 F.3d at 612.
Put differently, the telephone unit itself is
merely a conduit for the abstract idea of classifying an image and storing the image based
on its classification. Indeed, the specification
notes that it “is known” that “cellular telephones may be utilized for image transmission,”
id. at col. 1 ll. 31-34, and existing telephone

Pet. App. 20
systems could transmit pictures, audio, and
motion pictures and also had “graphical annotation capability,” id. at col. 1 ll. 52-59.
Cf. also Credit Acceptance Corp. v. Westlake Services,
LLC, 859 F.3d 1044, 1057 (Fed. Cir. 2017):
Significantly, the claims do not provide
details as to any non-conventional software
for enhancing the financing process. Intellectual Ventures I LLC v. Capital One Fin. Corp.,
850 F.3d 1332, 1342 (Fed. Cir. 2017) (explaining that “[o]ur law demands more” than claim
language that “provides only a result-oriented
solution, with insufficient detail for how a
computer accomplishes it”); Elec. Power Grp.,
830 F.3d at 1354 [Elec. Power Grp., LLC v.
Alstom S.A., 830 F.3d 1350, 1354 (Fed. Cir.
2016)]; (explaining that claims are directed to
an abstract idea where they do not recite “any
particular assertedly inventive technology for
performing [conventional] functions”).
Considered as an ordered combination, the computer components of Appellant’s system add nothing
that is not already present when the components are
considered separately. The claim does not, for example,
purport to improve the functioning of any computer.
Nor does it effect an improvement in any other technology or technical field. Instead, the claim at issue
amounts to nothing significantly more than an instruction to communicate information and issue instructions using a generic computer. That is not enough to
transform an abstract idea into a patent-eligible invention. See Alice, 134 S. Ct. at 2360.

Pet. App. 21
The Appellant argues that the claims are novel
and nonobvious over the prior art cited by the Examiner, and that this demonstrates that the claims are
not merely conventional. Appeal Br. 15. See also,
Reply Br. 4 (“the claims recite an arrangement sufficiently unconventional to be patentable over prior art
cited by the Examiner and concerned with similar
problems in the same domain.”)
However, a finding of novelty or nonobviousness
does not necessarily lead to the conclusion that subject
matter is patent-eligible. “Groundbreaking, innovative, or even brilliant discovery does not by itself satisfy the § 101 inquiry.” Ass ‘n for Molecular Pathology
v. Myriad Genetics, Inc., 133 S. Ct. 2107, 2117 (2013).
See especially Intellectual Ventures I LLC v. Symantec
Corp., 838 F.3d 1307, 1315 (Fed. Cir. 2016):
Indeed, “[t]he ‘novelty’ of any element or steps
in a process, or even of the process itself, is of
no relevance in determining whether the subject matter of a claim falls within the § 101
categories of possibly patentable subject matter.” Diamond v. Diehr, 450 U.S. 175, 188-89,
101 S. Ct. 1048, 67 L.Ed.2d 155 (1981) (emphasis added); see also Mayo, 132 S. Ct. at
1303-04 (rejecting “the Government’s invitation to substitute §§ 102, 103, and 112 inquiries for the better established inquiry under
§ 101”). Here, the jury’s general finding that
Symantec did not prove by clear and convincing evidence that three particular prior art
references do not disclose all the limitations of
or render obvious the asserted claims does not

Pet. App. 22
resolve the question of whether the claims
embody an inventive concept at the second
step of Mayo/Alice.
The Appellant argues that the claims do not preempt others from using an abstract idea as evidenced
by the alternative approaches to preventing divulgation of sensitive payer information disclosed by the
prior art cited by the Examiner. Appeal Br. 15.
It is true that the Supreme Court has characterized pre-emption as a driving concern for patent eligibility. See Alice, 134 S. Ct. at 2354. But characterizing
pre-emption as a driving concern for patent eligibility
is not the same as characterizing pre-emption as the
sole test for patent eligibility. “The Supreme Court has
made clear that the principle of preemption is the basis
for the judicial exceptions to patentability” and “[f ]or
this reason, questions on preemption are inherent in
and resolved by the § 101 analysis.” Ariosa Diagnostics, Inc. v. Sequenom, Inc., 788 F.3d 1371, 1379 (Fed.
Cir. 2015) (citing Alice Corp., 134 S. Ct. at 2354). However, “[w]hile preemption may signal patent ineligible
subject matter, the absence of complete preemption
does not demonstrate patent eligibility.” Id. at 1379.
Cf. OIP Techs., Inc. v. Amazon.com, Inc., 788 F.3d 1359,
1362-63 (Fed. Cir. 2015) (“[T]hat the claims do not
preempt all price optimization or may be limited to
price optimization in the e-commerce setting do not
make them any less abstract.”). “What matters is
whether a claim threatens to subsume the full scope of
a fundamental concept, and when those concerns arise,
we must look for meaningful limitations that prevent

Pet. App. 23
the claim as a whole from covering the concept’s
every practical application.” CLS Bank Intern. v.
Alice Corp. Pty. Ltd., 717 F.3d 1269, 1281 (Fed. Cir.
2013) (Lourie, J., concurring). Here, we find the
claimed subject matter covers patent-ineligible subject matter. Accordingly, the pre-emption concern is
necessarily addressed. “Where a patent’s claims are
deemed only to disclose patent ineligible subject matter under the Mayo framework, [ ] preemption concerns
are fully addressed and made moot.” Ariosa Diagnostics, 788 F.3d at 1379.
The Appellant’s arguments challenging the Examiner’s determination that claim 8 does not add anything significantly more to transform the combination
of abstract ideas to which it is directed into an inventive concept are unpersuasive.
We have considered all of the Appellant’s remaining arguments and have found them unpersuasive.
Accordingly, because representative claim 8 and claims
3-5, which stand or fall with claim 8, are directed to an
abstract idea and do not present an “inventive concept,” we sustain the Examiner’s determination that
they are directed to ineligible subject matter under 35
U.S.C. § 101. Cf. LendingTree, LLC v. Zillow, Inc., 656
F. App’x 991, 997 (Fed. Cir. 2016) (“We have considered
all of LendingTree’s remaining arguments and have
found them unpersuasive. Accordingly, because the asserted claims of the patents in suit are directed to an
abstract idea and do not present an ‘inventive concept,’
we hold that they are directed to ineligible subject matter under 35 U.S.C. § 101.”).

Pet. App. 24
The rejection is sustained.
DECISION
The decision of the Examiner to reject claims 3-5
and 8 is affirmed.
No time period for taking any subsequent action
in connection with this appeal may be extended under
37 C.F.R. § 1.136(a)(1)(iv).
AFFIRMED

